<html>
<title> - THE ANTWONE FISHER STORY AS A CASE STUDY FOR CHILD WELFARE</title>
<body><pre>[Senate Hearing 113-195]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-195

                     THE ANTWONE FISHER STORY AS A 
                      CASE STUDY FOR CHILD WELFARE

=======================================================================

                                HEARING

                               before the

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 23, 2013

                               __________







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






            Printed for the use of the Committee on Finance
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

86-847-PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                          COMMITTEE ON FINANCE

                     MAX BAUCUS, Montana, Chairman

JOHN D. ROCKEFELLER IV, West         ORRIN G. HATCH, Utah
Virginia                             CHUCK GRASSLEY, Iowa
RON WYDEN, Oregon                    MIKE CRAPO, Idaho
CHARLES E. SCHUMER, New York         PAT ROBERTS, Kansas
DEBBIE STABENOW, Michigan            MICHAEL B. ENZI, Wyoming
MARIA CANTWELL, Washington           JOHN CORNYN, Texas
BILL NELSON, Florida                 JOHN THUNE, South Dakota
ROBERT MENENDEZ, New Jersey          RICHARD BURR, North Carolina
THOMAS R. CARPER, Delaware           JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         ROB PORTMAN, Ohio
SHERROD BROWN, Ohio                  PATRICK J. TOOMEY, Pennsylvania
MICHAEL F. BENNET, Colorado
ROBERT P. CASEY, Jr., Pennsylvania

                      Amber Cottle, Staff Director

               Chris Campbell, Republican Staff Director

                                  (ii)































































                            C O N T E N T S

                               __________

                           OPENING STATEMENTS

                                                                   Page
Baucus, Hon. Max, a U.S. Senator from Montana, chairman, 
  Committee on Finance...........................................     1
Isakson, Hon. Johnny, a U.S. Senator from Georgia................     3

                               WITNESSES

Fisher, Antwone, author, director, and film producer, Los 
  Angeles, CA....................................................     4
Stangler, Gary, executive director, Jim Casey Youth Opportunities 
  Initiative, St. Louis, MO......................................     6
Fenner, Eric, managing director, Casey Family Programs, 
  Westerville, OH................................................     8
Campbell, Kevin, founder, Center for Family Finding and Youth 
  Connectedness, Lakewood, WA....................................    10

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Baucus, Hon. Max:
    Opening statement............................................     1
    Prepared statement...........................................    25
Campbell, Kevin:
    Testimony....................................................    10
    Prepared statement...........................................    28
Fenner, Eric:
    Testimony....................................................     8
    Prepared statement...........................................    30
Fisher, Antwone:
    Testimony....................................................     4
    Prepared statement...........................................    32
Hatch, Hon. Orrin G.:
    Prepared statement...........................................    36
Isakson, Hon. Johnny:
    Opening statement............................................     3
Stangler, Gary:
    Testimony....................................................     6
    Prepared statement...........................................    38

                             Communications

Find Families in Mexico..........................................    47
Generations United...............................................    54
National Indian Child Welfare Association (NICWA)................    58
National Institute for Permanent Family Connectedness............    65

                                 (iii)

 
                     THE ANTWONE FISHER STORY AS A 
                      CASE STUDY FOR CHILD WELFARE

                              ----------                              


                        TUESDAY, APRIL 23, 2013

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:02 
a.m., in room SD-215, Dirksen Senate Office Building, Hon. Max 
Baucus (chairman of the committee) presiding.
    Present: Senators Rockefeller, Wyden, Schumer, Cantwell, 
Nelson, Carper, Cardin, Brown, Bennet, Casey, Hatch, Grassley, 
Thune, Isakson, and Toomey.
    Also present: Democratic Staff: Amber Cottle, Staff 
Director; David Schwartz, Chief Health Counsel; Mac Campbell, 
General Counsel; Sean Neary, Communications Director; and 
Diedra Henry-Spires, Professional Staff Member. Republican 
Staff: Chris Campbell, Staff Director; Shannon Crowley, Special 
Assistant; and Becky Shipp, Health Policy Advisor.

   OPENING STATEMENT OF HON. MAX BAUCUS, A U.S. SENATOR FROM 
            MONTANA, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. The hearing will come to order.
    Winston Churchill once said, ``There is no doubt that it is 
around the family and the home that all the greatest virtues--
the most dominating virtues of human society--are created, 
strengthened, and maintained.''
    As the Nation and Congress debate big policies, we can 
never forget the impact each home has on a small child. This 
impact stays with a child throughout his or her life. And 
strong homes improve our society and our country.
    The Senate Finance Committee plays a key role in 
strengthening the home by overseeing the Nation's child welfare 
system. This is an important issue to me. Each year, close to 
3,000 children in my home State of Montana enter foster care. 
Too often, they are the victims of abuse or neglect; just 
children, but forced at a young age to deal with serious family 
issues.
    The good people at the Montana Department of Public Health 
and Human Services work to find safe, caring homes for all of 
these kids. They are restoring their hope for a better future, 
but it is not easy.
    Today, we will discuss solutions to the challenges these 
kids face as we examine America's foster system. We will 
discuss ways to find a loving home for every child who needs 
one. We will focus on the story of one child who grew up in the 
foster system. The story of one child who--like so many foster 
kids in Montana and across America--persevered through 
adversity in search of his family. Today, Mr. Antwone Fisher 
will allow us to use his life story as a lens to view the 
evolution of America's foster care system.
    While there is still much work to be done, progress is 
being made. In 2002, more than 530,000 children lived in foster 
care across the Nation. By 2011, that number dropped by more 
than 27 percent to just over 400,000. And this committee served 
a key role helping more kids find permanent homes.
    In the past 6 years, this committee drafted two significant 
pieces of legislation that strengthened the Nation's foster 
care system.
    In 2008, Congress passed the Fostering Connections Act. 
This bill extended and expanded adoption incentive programs. 
This legislation helped connect children with families. It 
offered States the option to keep kids in foster care up to the 
age of 21 instead of 18. And it ensured that these kids could 
stay in their schools. The law also required better 
coordination of health care services. It expanded opportunities 
for tribes to run child welfare systems. And it preserved 
family connections by keeping siblings together and promoting 
guardianship and adoption.
    In 2011, Congress went one step further. We passed the 
Child and Family Services Innovation and Improvement Act. This 
law gave States more flexibility and the opportunity for 
innovation in child welfare by easing Federal restrictions. In 
exchange, States must improve safety standards, prevent child 
abuse, and reduce foster care re-entry rates.
    We will hear today how Ohio, the State where Mr. Fisher was 
in foster care, used this authority to revamp its system. We 
have made great strides to improve the lives of foster kids. 
But more must be done.
    The Child Welfare League of America reports that one 
quarter of former foster kids become homeless after aging out 
of foster care--one quarter. Some foster kids are simply 
dropped off at a bus stop on their 18th birthday and left to 
fend for themselves. The law now considers them ``adults.'' We 
must do more to prepare these kids for the reality of 
adulthood.
    And we must do more to establish a permanent connection 
between foster kids and a positive role model. Nationwide more 
than 104,000 kids are waiting to be adopted. That is down from 
more than 130,000 kids in 2007. In Montana, there are 460 kids 
waiting to be adopted, down from 600 kids in 2007. But that is 
still 460 kids too many.
    Federal Adoption Incentive Grants, which reward States for 
increasing adoption rates, can help reduce these numbers 
further. This committee has jurisdiction over these grants, 
which expire at the end of September. The grants play a vital 
role in connecting children with families, and we should extend 
them.
    We also should extend the 48 Family Connections Grants that 
expire at the end September. These grants help children in 
foster care reconnect with their own family members. We know 
that children placed with caregivers who are family, even 
extended family, are far better off.
    A story about a boy named Brandon from Missoula, MT 
illustrates this point. Brandon's mother was a drug addict. His 
father was a convicted felon. Brandon spent his childhood in 
and out of foster care.
    At the age of 7, Brandon's mother abandoned him to his 
father, who was just released from prison. But Brandon's father 
did not want him either and tried to send him back to his 
mother. Feeling unwanted by both parents, Brandon left his 
father and lived in shelters, group homes, and eventually on 
the street.
    A few nights before Christmas one year, Brandon spent the 
night out in the snow and almost froze to death. On Christmas 
Eve, when most families were together enjoying the holidays, 
Brandon was in the hospital recovering from hypothermia.
    Today, thanks to the efforts of a special team in Montana 
dedicated to helping foster children find extended family 
members, Brandon has been reunited with his sister, his 
brother, his grandparents, his aunts, uncles, and cousins. They 
love Brandon and have helped put his life back on track.
    As this committee continues to work on legislation to 
improve the child welfare system, let us never forget Brandon's 
story. Let us never forget the hundreds of thousands of foster 
children like Brandon and Mr. Fisher who, with guidance and 
support from a caring adult, now have every opportunity to 
succeed in life. And let us never forget that every child 
should have the opportunity to grow up, as Churchill said, 
around family and home. That is where virtues are created, 
strengthened, and maintained.
    [The prepared statement of Chairman Baucus appears in the 
appendix.]
    The Chairman. I might say as a side note, we will interrupt 
today's hearing to consider the nomination of Marilyn Tavenner 
to be the Administrator of the Centers for Medicare and 
Medicaid Services, otherwise known as CMS. And we anticipate 
voting on her nomination at about 10:30 a.m., when we have a 
quorum.
    I thank the hearing witnesses for their indulgence as we 
conduct this very important piece of committee business.
    Senator Hatch is not yet here. Senator Isakson, if you want 
to make a statement, I have to leave at this moment. And then, 
if you could conduct the hearing, we will proceed.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON, 
                  A U.S. SENATOR FROM GEORGIA

    Senator Isakson. I will, Mr. Chairman. Thank you, Mr. 
Chairman.
    The Chairman. Thank you.
    Senator Isakson. I will just make a brief remark. One of 
the leading citizens of my State is a gentleman by the name of 
Truett Cathy, who founded Chick-fil-A and runs WinShape Homes 
today, and who takes care of foster children.
    He has written a book called, ``It is Better to Build Boys 
Than Mend Men.'' It is one of the best books I have ever read. 
It talks about the importance of meeting the needs of our youth 
early so they have a rich and robust life and contribute to 
this society.
    I commend the chairman on calling this hearing today, and I 
welcome all of our witnesses. And I will recognize them in 
order. I do not know which order he told you you would be 
speaking. Mr. Fisher, will you be first?
    Mr. Fisher. Yes.
    Senator Isakson. All right. Well, we are going to have Mr. 
Antwone Fisher, author, director, and film producer, from Los 
Angeles, CA, about whom we are going to hear a lot today; Mr. 
Gary Stangler, executive director of the Jim Casey Youth 
Opportunites Initiative in St. Louis, MO; Mr. Eric Fenner, 
managing director, Casey Family Programs, Westerville, OH; and 
Mr. Kevin Campbell, founder, Center for Family Finding and 
Youth Connectedness, Lakewood, WA.
    Mr. Fisher, we are delighted to have you today. Try to keep 
your testimony to within 5 minutes if at all possible, and be 
sure to turn on your mic.

        STATEMENT OF ANTWONE FISHER, AUTHOR, DIRECTOR, 
               AND FILM PRODUCER, LOS ANGELES, CA

    Mr. Fisher. Yes, sir. My mother was a foster child herself. 
Her mother died when she was 13, and her father was deemed 
unreliable, so she was placed in foster care.
    She was pregnant with me at the age of 17, and she was 
incarcerated at the time. My father's name was Edward Elkins. 
He was 23, and he was a nightclub singer and a handyman. He had 
a girlfriend who murdered him 2 months before I was born. I was 
born in the institution where my mother was incarcerated.
    The State took me and immediately placed me in foster care. 
At first I went to an orphanage and then to a foster home. I 
stayed there for 2 years, where the woman--in my records it 
said apparently she really loved me. She would hold me close.
    When she came to the office, they admonished her all the 
time about holding me too close. They felt that it would be too 
difficult for me to separate from her when my mother came to 
claim me.
    They took me from her and put me in another foster home 
where I endured, along with my foster siblings, sexual abuse, 
verbal abuse, physical--anything you can imagine, they rained 
this down on us. And I endured this with my foster siblings for 
12 years.
    After maybe about 11 years, my foster parents were thinking 
of moving back to Mississippi where they had originated. And of 
course, I was a ward of the State of Ohio. I could not go with 
them, and they were trying to find a way to get rid of me.
    So my foster mother precipitated a problem where I was 
removed, and I was placed in an orphanage called the Metzenbaum 
Children's Center, named for Senator Howard Metzenbaum. I 
stayed there for 6 months. They could not find anyone who would 
take a teenaged boy, so they put me in a reform school in 
western Pennsylvania called George Junior Republic.
    I stayed there until I graduated from high school. I 
actually enjoyed it there. It was a lot better than where I had 
come from. I stayed there until I graduated high school.
    I had a social worker come to pick me up, and he told me I 
was going to be emancipated. I did not know what being 
emancipated meant, and he was going to explain it to me on my 
way back to Ohio.
    What he told me was that I would have to plan for myself 
from now on and that my case had been transferred when I went 
to George Junior to the Juvenile Justice Department. So it 
appeared that I had been a troubled kid, as if I had done 
something wrong.
    All of the certificates that were important to me, that I 
had earned while I was at George Junior, in auto body and food 
service, that I was going to use to get a job, I could not use 
to get a job. I could not use them because they had the 
Juvenile Justice Department of Mercer County on everything that 
I owned.
    When he dropped me off, he dropped me off at a men's 
shelter. He gave me $60 and told me that I would be on my own 
and that they were expecting me inside. I went inside to get 
the keys to a room that they were going to have for me. I got 
the keys. The guy behind the desk warned me that there were men 
who were raping boys there and that I should be careful.
    While I was there, I saw some of the foster care kids that 
I had known while I was in foster care. So I got to know them, 
but it turned out that we were delivered into a situation where 
there were pimps and prostitutes who took us in and basically 
were making criminals out of us.
    I escaped and ultimately wound up joining the Navy after 6 
months. It was 2 days before Christmas. I joined the Navy, and 
I got a chance to get myself together.
    I got out of the Navy and looked for my family. I finally 
found them by searching the Ohio Bell telephone book. I found 
my father's sister and found my family.
    I have almost 17 seconds left.
    Senator Isakson. I think everybody will be patient and give 
you a little longer to finish your statement, as long as you 
want.
    Mr. Fisher. Oh, well let me back up some. [Laughter.]
    Senator Isakson. Not that far, Antwone.
    Mr. Fisher. Well, while I was on the street, they had jobs 
for all of us to do. It seems like they were waiting for us. 
They knew that every June there was going to be a group of 
foster children who were going to be delivered onto the 
streets, a fresh group of kids that had boys and girls as young 
as I was prostituting themselves.
    Me, I was given a job watching prostitutes and holding--the 
guy I found protection from, holding his gun, holding his 
money. He told me that I was a minor, and he explained that as 
long as I kept my mouth closed, he would always take care of 
me.
    Well, he gave me these cards that I was to give to people 
he was selling them to. They had addresses on them. One day I 
did not sell a card that I was supposed to, and, as it turned 
out, these cards, he said they were people who had extra money 
for an extra special time.
    And he beat me up because I had this card I was supposed to 
sell. I was holding it for someone else. I could not understand 
why he got so angry, and one of the prostitutes told me that 
junkies, heroin addicts, were exchanging their children for 
heroin, and these addresses were where the kids were.
    With that and all that I knew of my own life, I decided to 
leave that area, and I went back into the community where I had 
grown up as a foster kid, hoping that somebody would remember 
me. I did find a childhood friend who let me stay in his 
basement. He was killed that summer, and I was back on the 
street.
    I could not believe all of this had happened to me. I did 
understand that I had to make rules for myself. I said I would 
never do drugs. I would never smoke. I could not stay out late. 
I had all of these rules which really turned out to really save 
me while I was living on the street.
    Winter came, and I was still on the street. Two days before 
Christmas, I saw this sign that said, ``Join the Navy and See 
the World.'' I did not have anything on my schedule, so----
[Laughter.]
    I went inside, and I asked the recruiter if they would take 
me in. They said if I came back after the holidays, they could 
help me, but they were going away for the holidays.
    I explained my situation, and they had a little mercy on 
me, gave me an aptitude test and got me a room at a Holiday 
Inn. I had not had a bath in like 3 months, so I took the 
longest bath of my life. That morning, 5 a.m., a recruiter came 
and took me to the Federal building. I took some more tests, 
and that night I was in Great Lakes, IL in boot camp.
    That is when my life really started. The change for me came 
through the Navy. It was a really structured environment, which 
I appreciated. I did well in the Navy, but I got the most help 
after seeing a Navy psychiatrist.
    I explained my story to him, and he always told me that one 
day I should think about looking for my true family. I never 
wanted to accept that I had a true family. It made it easier 
for me to get along in the world pretending that I never came 
from anywhere.
    I saw my foster brother and sister struggle after being 
rejected by their family, and I never wanted that for myself, 
so I made the Navy my family and I stayed for 11 years.
    I got out, and I went to the Federal Law Enforcement 
Academy in Glynco, GA and became a Federal Corectional 
Enforcement Officer. I did that for 3 years, and it did not 
suit my personality. So I went on--Sony Pictures was hiring 
security guards, so I figured I would qualify for that. And I 
started thinking about my real family, and that is when I 
started looking for them and found them.
    Everyone kept saying it would make for a great movie, and I 
kept insisting on writing it. They said because I had not had 
any writing experience, never went to college, I could not 
write it. I got some legal pads and wrote it by hand.
    I gave it to a producer who thought I had writing talent. 
He sold it to Twentieth Century Fox. I have been a writer and 
producer and director and author ever since.
    [The prepared statement of Mr. Fisher appears in the 
appendix.]
    Senator Isakson. Thank you for being with us today.
    Mr. Fisher. Thank you, sir.
    Senator Isakson. Mr. Stangler?

STATEMENT OF GARY STANGLER, EXECUTIVE DIRECTOR, JIM CASEY YOUTH 
            OPPORTUNITIES INITIATIVE, ST. LOUIS, MO

    Mr. Stangler. Thank you, Senator. It is both a privilege 
and a challenge here to follow Mr. Fisher and the impact of his 
kind of story.
    This is my fifth time before the Senate Finance Committee. 
And over the past 25 to 30 years, I have had a front row seat, 
watched firsthand the arc of progress of this committee in the 
area of child welfare.
    It seems no matter the times--going back not long after Mr. 
Fisher emancipated in 1980, the Adoption Assistance and Child 
Welfare Act really began to first recognize these issues of 
foster care drift and the need to connect foster children with 
families, then up through the Family Preservation and Support 
Act, the Adoption and Safe Families Act, and, as the chairman 
started with, the Fostering Connections Act of 2008, which was 
a remarkable event in my experience because, the day the bill 
was before this committee, when this committee was working on 
the bill, the economy was crashing behind it.
    I knew that there were other things that began to draw 
attention, and yet this committee stuck with it, passed the 
Fostering Connections Act, which I believe is a landmark piece 
of legislation in one important respect. A provision that was 
inserted in this committee was the requirement that young 
people like Mr. Fisher who suddenly find themselves emancipated 
now, 90 days before emancipation, have to have a plan in place. 
And, according to the law, it has to be as detailed as the 
youth directs.
    In other words, we must give young people the opportunity 
and the responsibility to begin to plan their own future before 
they are emancipated. There are a lot of people who correctly 
think we should start at 15, 14, and that is all true. But, if 
you have ever had a teenager, known a teenager, worked with a 
teenager, they are not really thinking about things until you 
get about 3 months out before something is actually going to 
happen, and then they are focused.
    I think this provision, while the States are still fairly 
slow to implement it, is going to turn out to be something with 
wide-ranging impact in the field. I salute the committee.
    I am with the Jim Casey Youth Opportunities Initiative now, 
after having been a Director of Social Services in the State of 
Missouri for, first Governor John Ashcroft, and then Governor 
Mel Carnahan for 12 years. So my opportunities to work with 
this committee on both the public and private side, the role of 
philanthropy in working with the legislation and with the 
programs that are generated by this committee, I think are 
singular in my experience in human services. In the 1980s, you 
had the Clark and Casey Foundations first stepping forward, and 
now today we work with 21 different foundations.
    The Jim Casey Initiative is a foundation focused 
exclusively on youth transitioning from foster care. I wish I 
could say that Mr. Fisher's story does not happen much anymore, 
but, in fact, it happens every day throughout this country. It 
is a pipeline to homelessness.
    I was just in Cleveland a couple weeks ago meeting with 
funders who work in the area of homelessness who have realized 
that it is young people like Mr. Fisher who are the pipeline to 
homelessness. Our project in Florida was located right down the 
street from the Salvation Army homeless shelter, because that 
is where the State agency dropped the kids off on their 18th 
birthday and still does, with their belongings in a plastic 
trash bag.
    We are in 16 States from Iowa to Georgia; in Atlanta, 
Cherokee County, and Macon in Georgia. All of our projects have 
youth boards, and there is a young woman from our project in 
Hawaii who said to me not long ago, everybody else grows up, 
but kids in foster care age out. It is not lost on them that 
they are treated differently here. Another young lady says the 
worst thing of all is to look up in the stands and there is 
nobody cheering for you at the end of this.
    I think the progress we are going to make, the progress 
this committee started in 2008, is going to be around helping 
young people take charge of their lives. We do not do very well 
when we feel like we are not in control of things. It is the 
ability to have some role in the direction of your life that 
makes a difference, because there are many Mr. Fishers out 
there who have the resilience. These kids have resilience. They 
want to succeed just like every other kid. They want to go to 
college. They want to join the Navy. They want to have these 
opportunities to do these things.
    I would make some suggestions to the committee for the 
future. We have an Opportunity Passport, a matched savings 
account. We allow young people to save for a car. If you do not 
have a car in the United States, especially in Georgia, 
especially in Iowa, you do not work, and you do not go to 
school.
    We have had great success with this, but what we have found 
is, the young people not only wanted a car so they could go to 
work and school, they wanted to visit their siblings, they 
wanted to visit their families, they wanted to stay in contact 
with their families. I believe families are hard-wired. I think 
this is an area for the committee to look at as we--10 years 
later--in light of neuroscience and adolescent brain 
development research that told us what parents all ready knew, 
that teenagers' brains are not quite developed yet. We need to 
work with that and give them the opportunities, the things we 
are trying to do now for those young people.
    I think we should take another look at Chafee 10 years 
later. I think we should take another look at education and 
training vouchers. The committee has done amazing landmark 
work. You do not get recognized for this, Senator. Everybody 
brings their problems to you in child welfare. They do not stop 
and understand the arc of progress of this committee, 
especially here in the last few years with Fostering 
Connections.
    I would lay out that there are challenges yet, things to be 
done. There are still Mr. Fishers out there, but there are 
fewer of them, and we are learning how to help them be more 
like Mr. Fisher and move on with their lives and be a success 
as Mr. Fisher has been.
    Thank you Senator.
    [The prepared statement of Mr. Stangler appears in the 
appendix.]
    Senator Isakson. Thank you for your testimony.
    Mr. Fenner?

         STATEMENT OF ERIC FENNER, MANAGING DIRECTOR, 
             CASEY FAMILY PROGRAMS, WESTERVILLE, OH

    Mr. Fenner. Thank you, Senator and members of the 
committee, for being here today. I also want to thank you for 
the order, that Mr. Stangler had to speak after Mr. Fisher, and 
not me. [Laughter.]
    My name is Eric Fenner. I am the managing director for 
strategic consulting with Casey Family Programs, a national 
foundation committed to improving the lives of vulnerable 
children and families in America by building communities of 
hope. Casey Family Programs has been serving children in foster 
care for more than 45 years.
    Recently I retired, after spending 32 years in public 
service. Over 20 of those years were spent in child welfare. I 
worked as a front-line worker for 10 years, investigating child 
abuse and neglect, placing children in foster and congregate 
care. I was able to rise to the rank of Executive Director, 
where I retired in 2011. I was the Executive Director of 
Franklin County Children Services, a large urban child welfare 
environment in a large urban community.
    The transformation I have directly experienced in child 
welfare over the last 25 years is extraordinary. In Franklin 
County, we have gone from a practice that was punitive and 
focused exclusively on fault-finding to one that is more 
family-engaging and strength-based. Child welfare agencies 
today are less administrative and rigid and more results-
oriented. We have access to research and evidence-based 
practices that allow us to have a better idea of what services 
will be most responsive to a particular set of problems 
experienced by the families we serve.
    We have gone from a system that was isolated from the 
community with a child rescue mentality, with an emphasis on 
placing children in foster care, to a system that is more 
collaborative, both with other systems and the community. This 
did not happen overnight. It took a concerted effort on the 
part of key community partners and a commitment from the child 
welfare agency to change our practice, but the outcomes have 
been impressive.
    In Franklin County, we believed it was important that we 
alter how we worked with families if we expected their 
responses to change and our outcomes to improve. To accomplish 
this required leadership, shared ownership, and commitment by 
our community partners, and, frankly, different thinking. 
Fortunately, within Ohio we operated under a child welfare 
demonstration project or a waiver which allowed us to repurpose 
Federal funds and align them with our goals.
    In lieu of simply supporting foster care and removing 
children from their families and communities, our waiver 
allowed our agency the flexibility to invest Federal dollars in 
community-based services that provide quality alternatives to 
foster care. I want to thank this committee for their 
leadership and support in 2011 that provided an opportunity for 
additional States to apply for the waiver through the Child and 
Family Services Improvement Act.
    In Franklin County, we learned that the ability to make 
smarter investments was important to implement what we knew was 
better for the children and families we served. Practice 
initiatives like differential response, also referred to as 
alternative response, allow agencies to use an alternative 
approach to traditional investigations. We realized that the 
majority of families that come to the attention of public child 
welfare agencies have not actually abused their children, but 
are in need of supportive services aimed at strengthening their 
families.
    Police officers do not respond to someone going 15 miles 
per hour over the speed limit in the same way they would an 
armed robber. The best child welfare systems recognize that 
each and every family should be assessed on an individual basis 
and a response identified that would be most appropriate to 
address their needs. Foster care should be our last resort, not 
our first response.
    I believe what we accomplished in Franklin County was 
tremendous and that, for children and families in this 
community, practice is now aligned with the outcomes the 
community values. The waiver was an important tool to 
accomplish this. Unfortunately, not all counties have the 
waiver.
    These counties are limited in their abilities to reinvest 
Federal dollars saved from the declining number of children 
entering foster care. As a result, they are challenged in their 
efforts to build capacity in their communities for services 
that could be used as an alternative to foster care.
    It is important that we continue to strive for improvements 
and smarter investments in child welfare. I was certainly 
familiar with Mr. Fisher's story prior to meeting him today. 
Every time I hear it, it is disturbing. It is a constant 
reminder that, even though Mr. Fisher's experienced occurred 
some years ago, we must never forget the importance of focusing 
on every child, one child at a time.
    This is why permanency is so important. I was quite naive 
when I first started in child welfare. I thought that 
permanency only related to either adoption or emancipation. The 
reality is that permanency is much broader than that.
    Permanency really reflects on the relationships. For 
children who are exiting the child welfare system, even if they 
are not adopted, having those permanent relationships is what 
connects that child to their past and hopefully creates a much 
brighter future.
    I thank you for the opportunity to speak here today, and I 
certainly would answer any questions. Thank you.
    Senator Isakson. Thank you for your testimony.
    [The prepared statement of Mr. Fenner appears in the 
appendix.]
    Senator Isakson. Mr. Campbell?

STATEMENT OF KEVIN CAMPBELL, FOUNDER, CENTER FOR FAMILY FINDING 
             AND YOUTH CONNECTEDNESS, LAKEWOOD, WA

    Mr. Campbell. Thank you. I want to begin by saying ``thank 
you'' to the committee and acknowledging Chairman Baucus and 
Ranking Member Hatch.
    I want to start, though, my testimony by thanking my wife 
Nicole Houston, my daughters Calli, Riley, and Lilli, and my 
son Finn for their countless sacrifices they have made to 
support my passion to find and engage the parents and relatives 
of children in America's child welfare system.
    I am humbled by the realization that I simply could not be 
here without the support of my family. This brings up the 
importance of today's hearing.
    In 2013, we continue to provide services that too often 
have the unintended consequence of sending older youth into 
adulthood without what we know to be essential to safety and 
health: membership in a family and a community of love and 
support.
    The Senate showed extraordinary leadership and vision when 
they enacted the Fostering Connections to Success Act of 2008, 
requiring notification of relatives within the first 30 days of 
a child's removal from their home. This leadership, combined 
with the advent of improved technology and innovative 
practices, such as Seneca Search Services, can produce powerful 
results.
    As I was preparing for today's hearing, I was able to 
locate 62 of Mr. Fisher's relatives within 10 minutes and at a 
cost of $15. Imagine how different Mr. Fisher's childhood and 
transition to adulthood could have been had we been able to 
locate and activate his family to participate in planning and 
making decisions for his future. The more than 10,000 youth in 
foster care I have assisted through searching have provided 
many lessons about what is possible for families.
    I have learned that, while a birth parent may struggle with 
challenges that make caring for or protecting their children 
difficult, they often have family members who could be 
supports. Several years ago, in fact, a relative I located for 
a child in care 10 years was a sitting U.S. Senator who had 
never before been notified by the State of the child's need.
    Given the importance of the mandated notification process, 
the question becomes, what happens when family members and 
caring adults are notified and immediately respond to the 
urgent need of children entering care? The cutting edge 
practices that engage families to actively participate in the 
decision-making and support of their kin have dramatically 
improved the well-being and permanency outcomes of children who 
have come to the attention of child welfare services.
    Efforts like those in San Francisco, Oregon, and Minnesota 
are leveraging Family Connections Grants to refine, measure, 
and test innovative, front-end practices that will help us 
further understand the full potential of this work to inform 
the field. Unfortunately, these practices are too infrequently 
available or unevenly implemented for families in need, thus 
squandering the opportunities created by the Fostering 
Connections to Success Act in far too many communities.
    One method to bridge this gap is to change the hearts and 
minds of those who practice, supervise, and authorize the 
rigorous, challenging, and often painful work with families in 
distress. Families are larger than we realize and certainly 
have many untapped resources. Families also experience 
incredible grief when a child has been removed from their home 
and the family has been prevented from having a voice in the 
fate of their family member.
    We need training that promotes the value and power of 
family and their participation in the process. This can prompt 
a culture change in the work environment to see family members 
as an essential asset in minimizing the trauma experienced by 
vulnerable children.
    We can address this need right now by using existing title 
IV-E training dollars to establish a national center that 
systemically approaches every jurisdiction in the country to 
install these practices of engaging families and involving them 
meaningfully in these children's lives. We need a systemic 
approach to encourage the States to implement these practices 
across the country and believe that this is an evolutionary, if 
not revolutionary, way of changing the nature of outcomes for 
children and youth in the child welfare system. At the very 
least, we could begin by strengthening the legislation by 
adding an enforcement clause and reporting requirements.
    I want to thank Seneca Family of Agencies and Ken Berrick 
for their unwavering support and partnership. Without this 
support, the effort called Family Finding could not have been 
possible.
    I would like to conclude my testimony with a brief story 
and a quote. I was recently training in New York City, and one 
of the staff from the agency walked up and said ``I want to 
thank you.'' I said, ``You're welcome, but why?'' She said, 
``My husband and I had been working on adopting and were 
getting matched to children here in New York City. Around the 
same time, we received a letter in the mail from South Dakota. 
It turns out we had a niece and nephew in the system that we 
did not know about. We just finalized their adoption.'' Then 
she continued, ``My husband and I are going on to adopt some 
children here in New York City as well.'' It does not get any 
better than that, and it points to the benefits of this 
landmark legislation.
    Finally, in closing, Martin Luther King Jr. penned the 
following in Letter from Birmingham Jail: ``Any law that 
uplifts human personality is just. Any law that degrades human 
personality is unjust.'' I would like to leave you with this 
thought as you consider the future of the Adoption Incentives 
Programs and the Family Connections Grants.
    Meaningful, life-long connections to family are the single 
factor most closely associated with positive outcomes for 
children. We can begin today to take the next steps to ensure 
that Mr. Fisher's story does not happen to another child in our 
care. Thank you.
    [The prepared statement of Mr. Campbell appears in the 
appendix.]
    The Chairman. Thank you, Mr. Campbell, very, very much for 
that moving statement. I regret I was unable to hear other 
witnesses, including you, Mr. Fisher. We did meet out front, 
and I know it is a very deep, wrenching story you have, but a 
very inspirational story. I am sorry I was unable to hear it.
    We are now going to turn to business. A quorum is now 
present. I thank my colleagues for their attendance. We will 
now interrupt the hearing to conduct an item of committee 
business.
    [Whereupon, at 10:38 a.m., the hearing was recessed, 
reconvening at 10:40 a.m.]
    The Chairman. I regrettably have to leave at this moment. I 
apologize to witnesses and ask their indulgence. I want you all 
to know that my absence in no way means I am not deeply 
involved with and care about the issues ahead of us. And we are 
going to have to reauthorize legislation to take care of many 
of the issues that have come up at this hearing. We will have 
to authorize sometime before September of this year. But thank 
you very, very much. Your testimony is going to be very, very 
helpful to drafting legislation.
    Senator Hatch?
    Senator Hatch. Mr. Chairman, I am going to have to leave 
too for the Judiciary Committee and its meeting. Who is next on 
the order?
    The Chairman. Well it is usually--when I am not here, then 
it is you. Then we go down the Democratic side in terms of 
chairing. Is that your question?
    Senator Hatch. No. I just need to know who is next up for 
questions.
    The Chairman. I see. I am sorry. All right. Well, Senator 
Cardin is next.
    Senator Hatch. I will turn to Senator Cardin.
    Senator Cardin. Well thank you, Mr. Chairman. I appreciate 
that very much, and I thank all of our witnesses.
    Mr. Fisher, I think your story is not only inspirational, I 
think each one of us questions whether, if we were in the same 
circumstances, we would have had the courage to make the 
decision you did to turn away from crime, turn away from drugs, 
turn away from alcohol, any other way we thought would be the 
only way to succeed, and would have had the maturity to make 
the decision that you did. So your story is not only 
inspirational, it gives us hope that we can choose the right 
decisions in life.
    I must tell you I came from the House of Representatives, 
from the Ways and Means Committee there. I was ranking Democrat 
on the Human Resources Committee when we passed the law that 
expanded services for children aging out of foster care.
    You point out the three challenges we have in our child 
welfare system. The first challenge is how we keep families 
together and find permanent placements for children who are 
otherwise vulnerable. Your story very much points that out.
    And, Mr. Campbell, I appreciate what you have done to try 
to bring families together, find permanent homes for children. 
That is clearly our first line of defense for children.
    Second, to those who are in temporary placement, we have a 
responsibility to make sure they are safe. The system failed in 
your case. You were not kept safe when you were under the 
direction of the welfare system. They did not find the 
appropriate place for you. And many children in your 
circumstance did not survive as a result of that.
    And then our third challenge is, how do we deal with 
children who are in a temporary situation when they age out of 
it? I must tell you, I relied upon my parents well beyond 18, 
or 21, or 25, or even 30. I must tell you they were an 
incredible support for me and my children so that they did not 
have to face the challenges that you faced in life.
    So I must tell you that I have attended many hearings in my 
years in Congress. This one will always be remembered because 
of your testimony and the testimony of the witnesses here. Your 
story, of course, is being told, but there is nothing like the 
real person telling the story. I thank you for sharing this 
with us.
    We talk about the number of children who are in vulnerable 
positions, but until you put a face on it, until you see the 
real person and see what decisions that you have made, I think 
sometimes we get lost in numbers. You just have motivated this 
Senator to do everything I can to make sure the resources are 
there to protect our children, our future.
    The only question I have for the panel, any one of you who 
may want to answer, is that, if you could identify what we 
could do, if there is one program that we could reinforce, or 
change, or create, that could help vulnerable children in our 
child welfare system, what would you like to see that priority 
be? Where would you like to see us place more resources in 
order to help vulnerable children?
    Mr. Stangler. Senator, I would be happy to answer that. My 
suggestion would be to take another look at the Chafee Act of 
1999 and the ETV, the education and training vouchers that were 
added to it in 2002.
    We have learned a lot in 10 years, and, as I mentioned, the 
neuroscience, we have learned more about the teenage brain. And 
to your point, no, my kids are much older than 18 and still--
they are not dependent, but in many ways I am important in 
their lives. So I think looking again now--and the word 
``family'' does not appear in Chafee.
    I think the Fostering Connections Act of 2008 was a 
landmark piece. I think we need to update Chafee now and 
connect it to that and do a better job of understanding, 
really, what it takes for a teenager to be prepared and to get 
out in the world, and to find ways to provide the supports that 
our kids take for granted from families, and how do we do that. 
That would be my suggestion, Senator.
    Senator Cardin. Mr. Fenner?
    Mr. Fenner. Yes. I think that the waivers have been 
outstanding, but we need Federal child welfare finance reform. 
Having States and counties--I am from a county having the 
flexibility to do so--design services that can be tailored to 
the needs of our families and our communities, I think is 
critically important.
    There will always be a need for foster care. But what we 
want to try to do is keep children in their own homes and in 
their own communities. The way to do that is to continue to 
provide services that are addressing the issues and needs that 
are bringing those children into care. Having the flexibility 
with Federal financing allows us to build capacity in our 
communities so that those children can receive service close to 
their own homes and those families can be maintained. Thank 
you.
    Senator Cardin. Mr. Campbell?
    Mr. Campbell. I want to acknowledge--Senator Baucus at the 
beginning of the hearing told a story of a young man from 
Montana by the name of Brandon. I led the team that found 
Brandon's family. We located his grandparents 2 miles from the 
State capital where we were working. Ten years later--and I 
want to acknowledge that, not only is this a struggle for 
children in our system, but it is a struggle for citizens who 
are the parents and grandparents of these kids, when their kids 
are in the system and they have not been invited to the table 
to help--his grandparents organized a response to this boy, and 
today it has made an immense difference in his life.
    So, if there was one recommendation at the smallest level, 
I would say explicitly authorize IV-E funding to conduct these 
searches rapidly for children and to put an enforcement 
provision in the law. If you do not mind me just commenting 
quickly, there is an undermining of trusts between governments 
and citizens when the government has custody of a child and the 
relatives are not notified.
    As I mentioned in my testimony, this happened even with a 
U.S. Senator several years ago who had a family member in the 
custody of the State for 10 years. Six weeks before her 18th 
birthday, being taken to a homeless shelter, the Senator's 
family was finally contacted. That just should not happen.
    Senator Cardin. Thank you. Thank you, Mr. Chairman.
    Senator Hatch. Well, thank you, Senator. I have inserted my 
opening statement into the record, but I wanted to note, I am 
very impressed with this panel. Mr. Fisher, you in particular. 
I just want you to know that and how important your testimony 
is to this committee this day.
    [The prepared statement of Senator Hatch appears in the 
appendix.]
    Senator Hatch. Senator Isakson, we will turn to you.
    Senator Isakson. Thank you, Mr. Chairman. Mr. Fisher, your 
testimony is compelling and a great story. I have a question to 
ask about your story. I think, after you were emancipated and 
went back to Ohio, you looked for your family. Is that correct?
    Mr. Fisher. No, sir. I was still in ``the mode.'' A part of 
the way I survived was I decided that I did not have a family. 
So I would never think of that. I felt that I should take care 
of myself and make the best choices I could for my life, 
because I saw my foster siblings be disappointed so many times. 
I did not want that.
    But, as it turned out, the foster home I grew up in, my 
uncles lived two streets over all those years. I actually went 
to elementary school with my cousins, his children. I did not 
know that we were related, of course, until I found my family 
when I turned 33. And they were there at the airport to greet 
me. I had grown up--actually, had a lot of fights with them 
during the summers. But it was really a nice thing.
    I walked past my grandfather's house on my way to junior 
high school every day. The family home where my father grew up 
I would, of course, pass by. They lived in a walk-up in the 
'50s, and that very same neighborhood was the neighborhood 
where all of my family lived. I knew some of them. We used the 
same corner grocer.
    Senator Isakson. During that period of time, the point I 
was going to get to, you said you made up your mind that you 
did not have a family.
    Mr. Fisher. Yes.
    Senator Isakson. And you made some rules for yourself.
    Mr. Fisher. Yes.
    Senator Isakson. You have to get a good night's sleep, do 
not smoke, and do not drink.
    Mr. Fisher. Right.
    Senator Isakson. Did you have a mentor who led you to that, 
or did you just see the damage that had been done by the other 
kids in foster care and decide to go an opposite direction?
    Mr. Fisher. I decided to go in the opposite direction. I 
realized in this decision that I made that I did not have a 
family, that nobody would come for me if I ever got in trouble. 
I knew that if I got caught with drugs, or smoking cigarettes, 
or whatever was wrong, I could not take the chance. While some 
of my friends, their parents would always show up at the school 
when they got in trouble, my foster parents never showed up at 
the school when I got in trouble at school.
    I learned early on that I was on my own, and I accepted it. 
I accepted that I was on my own. My foster siblings never 
accepted that they were on their own. I think that they always 
tried to make themselves a part of the foster family or their 
real family.
    I think what helped me was that I decided that I was on my 
own and all of the decisions I had to make had to be good 
decisions. And whether I had to--what some people might call--
suffer by not participating in things that may seem like fun, I 
knew that I could not do it.
    Even when I was in the Navy, on my first ship they used to 
call me the Catholic Priest, because I would never go off the 
ship in some ports.
    Senator Isakson. I know we cannot really do this, but it 
would be a great law to say that, upon reaching the age of 18, 
every foster child in America had to read your story because 
you are a role model and a mentor by the way you have lived 
your life, and you are to be commended for doing that.
    Mr. Fisher. Thank you, sir. I think some of it came out of, 
not raw fear, but the fear of being more alone than I actually 
was. I felt that if I was institutionalized more than I felt 
like I was, that would be the worst thing that could happen.
    I was a reflective kid early on, and I used my imagination 
to help me get past a lot of things. Some of my contemporaries 
wanted the real thing all of the time.
    Senator Isakson. Well, you are a great role model, and we 
appreciate you testifying today. Thank you very much.
    Mr. Fisher. Thank you.
    Senator Hatch. Thank you, Senator.
    Senator Nelson, you are next.
    Senator Nelson. Mr. Fisher, what happened to the first 
foster mother who held you close?
    Mr. Fisher. When they took me from her, of course, I never 
knew her. I just read about her in my childhood records. But 
when I was making the film Antwone Fisher in Cleveland, there 
was a woman who came up to me with a picture of her. She told 
me she had passed away and that, after reading my book, they 
recognized that she was the person I was talking about. And I 
had never seen her, but I got a chance to see her in her 
photograph.
    Senator Nelson. What about your mother?
    Mr. Fisher. My mother, she spent her entire life receiving 
county services and never really could get herself together. 
She had 4 other children. They all were in foster care. She 
passed away a couple years ago in her sleep.
    There was a thing that struck me, in that they called me 
and told me that my mother was still at the funeral home. And 
this had been like a few weeks after the funeral. I did not 
understand why, and they said that it was my fault because I 
did not sign. They wanted to have her cremated and they needed 
my signature.
    I was struck that, after all of this time and all that had 
happened and even though she never raised me, I still had a 
responsibility to her. I have really come to a place of 
forgiveness for everything.
    I think that a part of my growth led me to true 
forgiveness. Even my foster parents, all of it, I just think 
the best way to go is to just have whatever life I have left, 
and to make it the best life that I can. You really have to 
forgive.
    Senator Nelson. Amen. At what age did you see that you had 
a self-discipline that you could----
    Mr. Fisher. This was early. This was something that I 
stumbled upon. My foster mother would beat me, and I learned 
how to take the beating and just bundle up real tight and think 
about something else as best I could. I could still feel it and 
it still hurt, but it did not hurt as much.
    When she realized that she was not hurting me like she 
wanted to, she stopped beating me. So then I understood some 
things about even that, even myself, being able to guard myself 
from a beating by using my mind and just accepting that I was 
being beaten and to try to overcome that.
    Senator Nelson. You are sharing about the inadequacies and 
the horrors of a system of foster care, and we are uncovering 
in my State of Florida the horrors and the beatings and 
potential homicides that occurred in a juvenile reform school 
now subsequently shut down. But I take it when you were sent to 
the juvenile home, the one that you mentioned in Pennsylvania, 
that was a positive experience. Is that correct?
    Mr. Fisher. Yes.
    Senator Nelson. And it was a juvenile home. Was it for 
boys?
    Mr. Fisher. Yes, it was for boys.
    Senator Nelson. Yes.
    Mr. Fisher. The boys who were there, they were separated 
from their families, so they felt differently about being 
there. It was almost--they had a home to think about, parents 
and uncles and cousins to think about going back to. Me, this 
was my place, my reality, and I accepted it and did my best.
    Senator Nelson. We had a place called the Marianna Boy's 
School in Marianna, FL where the grounds were immaculate. I 
have talked to boys, now old men, who, when they got there, 
they had this feeling, wow, this is not going to be bad at all. 
They were sent there for some minor infraction of the law or in 
some cases mistaken infractions of the law.
    Then it became a hell-hole. There was a book written about 
it, ``The White House Boys,'' because the place for punishment, 
the beatings, and the sexual abuse, was in a white-washed 
concrete dungeon referred to as the White House.
    This is just now coming to light as we are trying to get a 
court order to exhume some of the graves that nobody ever knew 
about that are now being discovered by ground-penetrating 
radar. So it is a wonderful thing that you had the opposite 
experience.
    Final question: you obviously are a walking recruiter for 
the United States Navy. [Laughter.]
    I take it that that is in part a theme in your movie, about 
what the military does for a young man. Do you have any 
thought--this is getting outside the jurisdiction of this 
committee and now over to another one of my committees, the 
Armed Services Committee--on resources in order to retain 
recruits who are having difficulty with the discipline in the 
military?
    Mr. Fisher. I do not know. It seems that if you become too 
much of a problem, they will let you go. What I was delighted 
to see--I did the commencement speech for the recruit 
graduation in Great Lakes from time to time. I like to do that. 
A part of the curriculum for kids who are not doing well 
emotionally is that they--I think they started this whole 
program by setting them back a week and putting them through a 
program. A part of it is learning about my story. They watch 
the film, and they have to read the book.
    And I was really touched by that, because it was put 
together based on the success that I have had after my 
experience with the Navy. That is something that the Navy has 
done as a result of the movie and the book.
    Senator Nelson. Does the Navy still provide a psychiatrist 
to young recruits today like was provided to you?
    Mr. Fisher. Well, yes, but they do not really--this 
particular psychiatrist was interested in helping me. I think 
you can go if you are having a problem. Usually, a lot of 
sailors use it for when they have marital problems, because 
sailors, they are deployed so long and then come back as young 
people with emotional issues from time to time. But mine were 
pretty severe, and I think that, if it was not for him and his 
compassion, they probably would have let me go.
    Senator Nelson. Thank you.
    Senator Hatch. Senator Casey?
    Senator Casey. Thank you very much. Mr. Fisher, I wanted to 
start my questioning with you and just say how remarkable your 
story is. It is just a stunning human story and a story we do 
not hear very often around here. We are grateful for that and 
also grateful for how triumphant you have been in the midst of 
all of those challenges.
    I want to ask you something which I know is probably hard 
to answer because it is subjective, and it is hard to aggregate 
a lot of experiences in one answer. But, I was thinking that a 
lot of us take for granted--I know I do--that I was born into 
and raised in a family where there were two parents all the 
time. They were two people whom I knew--even though I probably 
did not think about it as a child--who loved each other and who 
had unconditional love for me. In my case we had seven 
siblings. And also that, no matter what happened to me or to my 
brothers and sisters, there would be someone there to break the 
fall, someone there to pick us up, someone there to love us no 
matter what.
    A lot of that, most of that if not all of it, was robbed 
from you in one way or another. You did not have that or, if 
you had it, you had it only in pieces.
    I know it is very difficult to answer this, but how did you 
get from there to here without all of those basics: the bonding 
and the nurturing and the basic elements that lead to a kind of 
a stable and positive environment? What were you able to--you 
obviously had a deep reservoir of personal courage and just 
capacity to overcome, but is there any way to encapsulate all 
of that in terms of how you dealt with it?
    Mr. Fisher. Well, early on, I did not trust adults at all. 
I did not trust teenagers either. And I thought there were not 
any good people in the world. But I had a teacher, her name is 
Mrs. Profit. I had her for the 4th, 5th, and 6th grade. So I 
was with her for a long time.
    This was a person I felt had really come to know me. She 
never pressed me to tell of what was going on in my life, but 
she always seemed to know when something was going on with me. 
She seemed to care. And so this was a person whom I always 
focused on. After knowing her, I believed that there were other 
good people in the world. So, instead of looking for bad 
people, I started looking for good people, and I found them 
everywhere.
    And so, when I find them, I try to keep them in my life as 
long as I can or in my memory to make them last longer. Mrs. 
Profit is actually like the grandmother to my children now. I 
found out, sometimes people you meet in life make better family 
members than the people you are born in a family with, so I did 
not feel that creating a family of my own from the people that 
I met in life--I mean, some are Polish, some are Filipino, some 
are black, some are Anglo-Saxon. If they were good to me and 
good people, I just--I think as a foster kid, we did not pick 
and choose a lot based on race and that kind of thing, because 
we were all kind of in the same boat. We had bigger issues.
    I came along thinking it is the heart of people that would 
matter the most to me and that I had the option to choose if 
they would be happy to have me. So I made it through that way.
    Senator Casey. I was struck by two references, at least, in 
your testimony, in the written testimony, to this concept of 
rest. You said on page 2, talking about George Junior Republic 
in my home State, you said, ``It was a therapeutic place for me 
where I had a chance to rest, a break before the more troubled 
days that were yet to come.'' And then later, when you talk 
about the Navy, you say ``The Navy became more than a place of 
rest, it became a home for me where I knew my existence in the 
world was useful.'' Just an interesting way to express a part 
in your life where you had sanctuary and you had a sense that 
you were able to rest.
    I think your testimony and your life story will give others 
some measure of rest when they need it. We are grateful you are 
here.
    Mr. Fisher. Thank you, Senator.
    Senator Hatch. Thank you, Senator.
    Senator Carper?
    Senator Carper. Thanks, Mr. Chairman.
    Mr. Fisher, welcome.
    Mr. Fisher. Thank you.
    Senator Carper. Thanks for bringing your three amigos with 
you. [Laughter.]
    I missed your testimony. I have read a little bit about you 
and look forward to seeing the film version I think you wrote 
the screenplay for. Last weekend I took the two kids I mentor 
back in Delaware--as Governor I was a big advocate of 
mentoring. We recruited about 10,000 mentors in our little 
State while I was Governor. We still have about 5,000. But the 
idea is, every child needs at least one good mentor, one good 
role model, and the more, the merrier. So I still like to set 
an example and mentor.
    I took them to see a movie. I took them to see a movie down 
on the riverfront in Wilmington, DE at our new IMAX theater 
complex, and we saw a movie. The name of the movie is not 22, 
it is not 32, it is 42. It is the Jackie Robinson story. And 
talk about a compelling and uplifting story about a guy who did 
not struggle like you did, actually got to go to college, had 
an intact family, put it together. But he broke the color line 
in baseball and went through incredible torture, really, in 
order to do that. It is a wonderful, wonderful story.
    I worked out early this morning at the central Y in 
Wilmington, DE, and one of the guys who works out there is the 
fellow who is the principal of the Prestige Academy where my 
mentee goes to school. I said to him, ``Jack, I saw a great 
movie over the weekend: 42. We have to figure out a way to show 
that to all the boys at Prestige Academy Charter School, all 
male, mostly minority, and most of them do not come from intact 
families, 2-parent families.'' I said, ``42 would be a great 
movie for those guys to see. We have to figure out how to make 
that happen.''
    I am going to take a look at your movie and see if maybe we 
cannot do the same thing with your story as well. I am a Navy 
guy, Navy midshipman for 5 years, Navy flight officer. I served 
some time in Southeast Asia. I did another 18 years, retired as 
a Navy Captain and P-3 Mission Commander, P-3 Aircraft Mission 
Commander. And I loved the Navy, got to go to college. I got a 
scholarship.
    The Navy helped to send me to school, provided a couple of 
jobs. But it was hugely helpful for me to go to school, and, 
when I finished up my active duty, the GI Bill helped, enabled 
me to get an MBA, move to Delaware. So the Navy has been a huge 
part of my life, and it sounds like it was in your life as 
well.
    I can remember some teachers along the way. My dad was a 
Chief Petty Officer, tough as nails. My mom was the most 
loving, caring, giving person in the world. Between the two of 
them they did a pretty good job of raising my sister and me. 
But we also had enormously supportive grandparents, aunts, and 
uncles, some teachers along the way who were just 
extraordinary.
    Go back in your life--a friend of mine, Chuck Welch, is a 
retired chief general council of the DuPont Company, and he has 
gone on to do extraordinary things in retirement with his life 
and just all kinds of good works. But he used to say--I do not 
know who he was quoting, but he would say, give me a child for 
5 years to help mold and shape that child's life and I can give 
him away and that child will be set for life in spite of what 
follows.
    Was there sometime early in your life, your first 5 or 6 
years, where you had a loving, caring family as a foster child 
that took care of you and then sent you on your way? Did that 
happen?
    Mr. Fisher. No. Aside from the first foster home----
    Senator Carper. Yes. Talk to us about the first foster 
home.
    Mr. Fisher. I was sent there almost immediately after my 
birth, and I stayed there for 2 years, so I do not remember 
her. She was a single woman, but I have read the records, and 
it sounds like she loved me a lot.
    Senator Carper. Yes.
    Mr. Fisher. And maybe those first 2 years were important, 
but I think I was lucky to meet Mrs. Profit.
    Senator Carper. What was she, 4th, 5th, 6th grade?
    Mr. Fisher. She was 4th, 5th, and 6th grade. It was more 
like, when I went to school, it was like going home, and going 
home was like going to a place I did not want to be. Of course, 
I would see her every day.
    Not only did she have me for those 3 years, she had all the 
same class. And so it was a really tight-knit group, and in 
fact I gave a party for all of us. I found all of them, and we 
all got together. Of course we were adults. It was nostalgic 
for me and, apparently, the rest of them did not feel the way I 
did.
    Maybe they did not have the troubles I did, did not latch 
onto it the way I did. It was always good to see her, and she 
was the one who was like a light.
    Senator Carper. Do you have any idea if she was a person of 
faith?
    Mr. Fisher. Yes.
    Senator Carper. Could you talk about that?
    Mr. Fisher. In those days you could pray in the mornings, 
so she would have us----
    Senator Carper. How about before math tests? [Laughter.]
    Mr. Fisher. She did have us pray in the morning. It was a 
quiet thing.
    Senator Carper. Yes.
    Mr. Fisher. And I knew it to be true that she was proud of 
her last name.
    Senator Carper. Is it like that saying ``a profit without 
honors''? She is a profit without----
    Mr. Fisher. She likes to say stuff like that, but it is not 
true, I do not think. [Laughter.] For me, maybe.
    Senator Carper. Well, it sounds like she is a person who 
lived through faith.
    Mr. Fisher. Yes. She is a wonderful person. When I first 
met her, she was 29. She had just gotten out of the Army, she 
and her husband who just left Vietnam. So they came to 
Cleveland from Louisiana, because she wanted to live near the 
Great Lakes.
    So there she was, and I feel now that it was my great 
fortune to be able to have been in her class those years, 
because those years were really rough. And I had those days to 
spend in her classroom and to recuperate there during the day.
    Senator Carper. There is a scripture in the New Testament. 
I will not get this exactly right. I think it is in the book of 
James, and it says, ``Show me your faith by your words. I will 
show you my faith by my deeds.'' And it sounds like Ms. Profit 
was somebody who showed her faith by her deeds with you, and 
hopefully, and I suspect, with a whole lot of other young 
people.
    One last thing if I could, Mr. Chairman. Our chaplain here 
in the Senate is an old Navy guy. He is a retired Navy Admiral. 
His name is Barry Black, and he is black. He is the first 
African American to be Chief of Chaplains for the Navy, first 
African American ever to be a chaplain for the U.S. Senate. He 
always likes to tell us Senators--talking about faith--he says 
the golden rule, treat other people the way we want to be 
treated, is the Cliffs Notes of the New Testament.
    As it turns out, it is the Cliffs Notes of every major 
religion on earth, and it is one that--I often thank Bob Casey 
down here who cohosts our weekly prayer breakfast in the U.S. 
Senate. But we are all reminded that, as we go about our work, 
we should be guided, whatever our faith, to treat other people 
the way we want to be treated.
    And the last thing that we try to be guided by is to figure 
out what works and do more of that. And one of the things we 
need to be able to do is figure out what worked with you and to 
be able to do more of that, because we could use a whole lot 
more ``Fishermen'' and women. So, thank you so much.
    Mr. Fisher. Thank you.
    Senator Hatch. Thank you, Senator.
    Senator Brown?
    Senator Brown. Thank you, Mr. Chairman and Senator Hatch. 
Welcome to all of you. Thank you for your advocacy for 
children. Especially welcome to the two Ohioans, Mr. Fenner and 
Mr. Fisher. Thank you.
    Mr. Fenner, when you were head of Franklin County Children 
Services and talked about the flexibility you needed that you 
did not always have, could you cite for us as we move, I hope, 
to reauthorize this and do it better, could you cite for us two 
or three concrete examples of what that flexibility would have 
meant for you in Franklin County and then smaller counties in 
Ohio? Mr. Fenner comes from the second-largest county in the 
State. How could other counties have learned from your concrete 
examples, if you would give those to us?
    Mr. Fenner. Well, I think what really set Franklin County 
apart was not just the flexibility from the waiver--which was 
huge--but we were also a property tax levy-supported agency. So 
those dollars were also flexible.
    The key, Senator, quite frankly, is the collaboration 
between the child welfare agency and the community. When the 
child welfare agency has the flexibility to invest dollars in 
the community to build services for those families, there is a 
connection between that agency and that community. It also 
assists the community in recognizing the responsibility that 
they play in providing assistance to children and families who 
are a part of that community.
    I think sometimes when the child welfare agency becomes 
involved, the community has the assumption that they no longer 
have responsibility for that child. When the agency is working 
with the community through investments into services tailored 
to that specific community, that really connects that community 
with the child welfare agency. And I think that is a critically 
important partnership.
    I think what was also very impressive in Franklin County 
was that we had the flexibility that we could, through 
developing profiles of the children who were coming through our 
front door, tailor our services to be responsive to those 
families. Without the flexibility and funding, we would not 
have had that. If we only have access to Federal dollars to 
help us offset the cost of foster care, we lose the opportunity 
to build that relationship.
    Senator Brown. Thank you for that. This flexibility is not 
built into the adoption incentive grants and family connection 
grants. It is really built into the fact that you have a 
local--voted upon by the voters--funding steam that has few 
strings attached, correct?
    Mr. Fenner. Yes. All of the dollars through the local 
property tax levies are flexible dollars. The only requirement 
is that those dollars are used for child welfare.
    Senator Brown. I have lived in Ohio my whole life, and I 
grew up in Mansfield, and Mansfield Children Services was 
pretty much always able to pass a levy because their reputation 
was so good. And I guess I just sort of extrapolated and 
thought that those discretionary dollars were available 
everywhere around the country. But Ohio, if not unique, is not 
typical in that counties can fund themselves that way?
    Mr. Fenner. Yes. About half of the counties in Ohio--of the 
88 counties in Ohio, about half of the counties actually have 
property tax levies. The other half do not. So the counties 
that have----
    Senator Brown. That is at the discretion of the county, but 
they have either failed to do it, tried and failed, or never 
tried?
    Mr. Fenner. Correct. Either tried or never tried. In 
Franklin County, we had property tax levies that went back as 
far as the early '60s. We were fortunate in that we always 
passed--we had one levy fail in 1980. We did a poor job of 
communicating what we were trying to do. But I think what 
really connected us with the community was that level of 
accountability that the county had to the child welfare agency. 
Nothing speaks to accountability like dollars, and when we were 
in a position where we had to go back in front of the voters 
and ask for that levy to be passed, we had to present to that 
community exactly what we were doing, what was working, what 
was not working. That level of accountability, I think, was 
very important.
    Senator Brown. So it is not just that half of Ohio counties 
do not have levies, do not have that discretionary money, but 
around the country many States do not allow for that local 
funding mechanism, I assume.
    Mr. Fenner. That is correct.
    Senator Brown. All right.
    Mr. Fisher, I have a really quick question for you. Thank 
you for joining us and for being the role model and hero you 
have been to so many Clevelanders and well-beyond-Clevelanders. 
So we are glad to have you here, of course.
    Had these grants, this emphasis on kinship connections, and 
other legislation been in place when you were in the foster 
care system, how do you think your life would have been 
different?
    Mr. Fisher. I probably would have grown up in Chicago. 
[Laughter.]
    Senator Brown. That would have been one difference.
    Mr. Fisher. Based on what my family told me when I found 
them--I found my father's family first. My uncle said, ``People 
who grow up in Cleveland do not move too far from where they 
grew up. I bet I can find your mother.'' The following day he 
found her living not too far from where she grew up.
    He also told me that if they had known, they would have 
sent me to his sister's house in Chicago, and she agreed that I 
would have lived with her and her children. And they all went 
to college. I felt like I would have gone to college. But I 
teach at UCLA now anyway. [Laughter.]
    Senator Brown. Which is not a bad place. I mean, compared 
to Cleveland State or Case, it is not all that great, but---- 
[Laughter.]
    Thanks very much for the testimony of all four of you.
    Senator Hatch. Well, thank you. I am going to thank all 
three of you, and especially you, Mr. Fisher. Your story is 
really compelling. I just want to congratulate you for being 
able to make so much of your life and to help so many other 
people as well.
    I am going to get that movie. I have not seen it yet. But I 
told my staff they have to get that movie for me because I want 
to see it.
    Mr. Fisher. Thank you.
    Senator Hatch. Keep doing the great work you are doing.
    Mr. Fisher. I will.
    Senator Hatch. You can do a lot of good work out there in 
the film industry and change some of their wicked ways. We 
would love to see you do that. [Laughter.]
    Mr. Fisher. Absolutely.
    Senator Hatch. And you folks who work in the field of child 
welfare, I just want you to know this ought to inspire your 
work. There are people who need you so badly and who have many 
success stories that you can tell, success stories of people 
who have gone on to become really qualified and good citizens 
in this country. So I want to commend you for the compassion 
and direction that you folks have given on behalf of thousands 
of children and youth whom you have helped.
    This has been a very good hearing, as far as I am 
concerned. And with that, we will recess until further notice. 
Thank you for being here.
    Mr. Fisher. Thank you, sir.
    [Whereupon, at 11:21 a.m., the hearing was concluded.]





                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                             <all>

</pre></body></html>
